In The
^wpnmz (fLaixrt of tI|B
Billy Daniel Raulerson, Jr.,
Petitioner,
V.

Warden
Respondent.
CERTIFICATE OF SERVICE
I, David W. DeBruin, hereby certify that I am a member of the Bar of this Court,
and that I have this 24th day of January, 2020, caused three copies of the Petition for a
Writ of Certiorari to be served via overnight mail and an electronic version of the
document to be transmitted via the Court’s electronic filing system to:
Beth Attaway Burton
Sabrina Graham
Attorney General’s Office
Room 306
40 Capitol Square, SW
Atlanta, GA 30334
Counsel for Respondent

GLxhJ} |V..
David W. DeB^ruin

